No. 20-6497

IN THE
SUPREME COURT OF THE UNITED STATES

IN re. ANDREY BRIDGES, Petitioner

ON MOTION TO LEAVE TO REHEAR/RECONSIDER WRIT

ON PETITION/MOTION FOR REHEAR/RECONSIDER WRIT OF
CERTIORARI TO THE

4

SIXTH CIRCUIT COURT OF APPEALS

Andrey L. Bridges #A650-493
Belmont Correctional Institution
P.O. Box 540
68518 Bannock Road
St. Clairsville, Ohio 43950
Petitioner In Propria / Persona

OFFICE OF THE CLERK
SUPREME COURT. U S.

QUESTION(S) PRESENTED

The issue here goes beyond a miscarriage of justice. It’s lower court’s blatant and
ou tright refusal to administer justice, when law warrants otherwise; it’s contrary to
what this court in Mutchum v. Foster. 407 U.S. 225, 240, (1972) proclaimed,
“throws open the doors of the United States courts to those whose rights under the
Constitution are denied or impaired”.

I. Does the state affirmative defense of Res judicata defeats amendment First, Fifth,
Sixth, Eighth, and Fourteenth of the United States Constitution?

II. When a free standing claim show actual Innocence, or factual Innocence, must
the claim be allowed to be heard and reviewed in all court[s], when the free
standing claims shows a manifest injustice of Due process, and Equal protection[s]
of the law, as protected by Amendment Five, Sixth, and Fourteenth of the United
States Constitution.

III. In a circumstantial case, if record produces speculation on the elements of
chargejs] and on the evidence, does speculation holds as held in
O’Lauehlin v. O’Brian. 568 F.3d 287, 304, 308 and, Brown v. Palmer, 441 F. 3d
347, 351 and makes a conviction “unreasonable, and contrary to federal law and
against equal protection of the law, and denial of Due process?
I

CONTINUED QUESTION(S) PRESENTED

IV. Under Shuln v. Delo. 513 U.S. 298, 330 (1995); holding; the assessment of
witness credibility is beyond the scope of [habeas corpus]. But when the witness
credibility is flawed should Schulp, be left open to habeas review as Bousley, 523
U.S. at 623; and Murray v. Carrier, 477 U.S. at 496?

V. When the record shows counsel was deficient and resulted in actual prejudice, as
held by the United States Supreme Court president in Strickland v. Washington,
466 U.S. 668, 688, did the lower court[s] in reviewing petitioner claims, violate
petitioner Equal Protection of the law set in the Sixth, and Fourteenth Amendment
to the United States Constitution.

VI: Should the court issue writ; When the doors of the Court[s] are willfully,
maliciously, and improperly closed to non-influential, self-represented persons, like
petitioner thereby foreclosing (1) a civil forum of justice, and (2) denies petitioner
his day in court”, simply because the courts want to protect their own kind via
abuse of power, does this court’s refusal to intervene and foreclose a civil forum
send a disturbing message that the ones in position of authority remains the only
avenue for attention/justice?

II

CONTINUED QUESTION(S) PRESENTED

VII: Should the court issue writ, where the Sixth Circuit Court of appeals
denied appellant the right to be heard and have a full appellate review as provided
by the United States Constitution of the First Amendment.

VIII: Should the court issue writ; when the Northern District Court lacks
jurisdiction because an appeal was taken in the higher appellate court, does waiting
for that appeal to be fully determined, deny appellants the right to appeal at a
reasonable later time, once the appeal was fully determined, did the lower court fail
its duty to allow petitioner his day in court, and have a fair review/hearing to
adjudicate such claims?

IX: For the court to issue writ to revisit the unreasoned decision(s) of the courts
En Banc denial, when the En banc was the only avenue left for attention to preserve
and allow adjudication and allow petitioner his First Amendment right to redress m
the court of law, as protected by the United States Constitution?

Ill

2. By demonstrating the following Memorandum in support, it is a reasonable
likelihood of this court reversing its previous decision and grant cert, quoting
Richmond v. Arizona. 443 U, S. 1323 98 S. Ct. 8 54 L. ED. 2d 34 (1977).
3. Petitioner certify the above to be true under the penalty of perjury, as well
what is stated below, all based on information and belief, and to those beliefs
Petitioner believes to be true.

JURISDICTIONAL STATEMENT
4.

A writ is properly granted to correct the usurpation of judicial power.

In re Link

A

)> u

See”

Media Devices Corn.. 662 F.3d 1221, 1222 (Fed. Cir. 2011)

Specific to this case. Petitioner timely submits this motion pursuant to the
United States Supreme Court Rule 44. As the denial of the petition was
denied on February 22, 2021

INTRODUCTION AND ARGUMENT
FACTS NECESSARY TO UNDERSTAND AND BACKGROUND OF CASE
AND UNCONSTITUTIONAL OPINIONS BELOW

1. These violation[s] arise from the unconstitutional conviction set in Cuyahoga
County Common Pleas Court, Case No. Cr. 574201-A. Where appellant was
convicted for murder, tampering with evidence and gross abuse of corpse.

2

2. Appellant filed an appeal through court appointed attorney, “See”
State v. Bridges. Case No. 100805 Court of Appeals of the Eighth District, the case
was Affirmed.
3. Appellant then filed an application to re-open under state 26(B) in which the
court held the presentment was outside the record and not appropriate in the style
of reconsideration. “See” State v. Bridses. at; Case No. 100805 at, 2015-Ohio-1447.
4. Appellant then filed to the Ohio Supreme court seeking jurisdiction, that court
denied to accept jurisdiction.
5. Upon appellant direct appeal while pending, he filed a post -conviction, the
appeal court unconstitutionally denied that appeal for not filing the record, even
though the record was requested for preparation to transmit to the appeal
court. “See” State v. Bridges, 574201A of Cuyahoga County common pleas court
2014, and 8th Dist. Cuyahoga Nos. 101938 (Oct. 1, 2014), and 101942 (Oct. 31,
2014). Appellant then filed a successive post-conviction, “See” State v. Bridges1 at,
Nos. 102930 and 103090, State v. Bridges, Lexus 2015-Ohio-5428.
Since, there were different orders directing appellant he should have raised his
claims on appeal, he submitted that is why appellant raised the 26(B), the court
then re-directed the issues in that post-conviction proceeding, and re-placed the
claims stating those issues should have been brought on direct appeal, and
appellant went back to filing successive(s) petition “See” State v. Bridges, at; Nos.
103634 and 104506, to correct and see why (all courts pinged ponged his

3

claims). Giving petitioner no legal right to address the miscarriages of
justice(s). State v. Bridges, 2016-Ohio-7298
6. “As means to get fair reviews he filed a habeas corpus, “See” Bridges v. Sloan,
Case No. l:15-cv-02556 at; 2018 U.S. Dist. LEXIS 221744, and, 2020 U.S. App.
LEXIS 25369. The District court did not review or over looked his Traverse and
(Exhibits) as the clerk did not file them, as well as not seeing that petitioner did
attest to the states finding of fact, as well as other matters alleging both federal and
United States Constitution violations, Because of the overlooked review, the
Petition was denied,
7. Appellant then filed an appeal to the United States Sixth Circuit Court of
Appeals court, “See” (appeal No. 19-3297) for Certificate of appealability, (6th Cir.
Nov. 21, 2019). While this appeal was pending appellant filed his 60(b) application,
on 7-12-2019; “See” Bridses v. Gray. l:15-cv-02556, The district court denied the
motion stating in “Order” he did not have jurisdiction while the appeal was pending
in the Sixth Circuit. Ultimately, the Sixth Circuit Court of Appeals denied appellant
certificate of appealablity, on 11-22-2019. “See” also for case for failure to
adjudicate, Bridges v. Sloan. 2019 U.S. Dist. LEXIS 29542, Bridges v. Sloan,
2019 U.S. Dist. LEXIS 29542, Bridses v. Gray. 2019 U.S. App. LEXIS 38285,
Bridses v. Gray. 2020 U.S. App. LEXIS 387, Bridses v. Gray, 2020 U.S. App.
LEXIS 25369, Bridses v. Gray. 2020 U.S. App. LEXIS 31667
8. Appellant then filed his Timely 60(b) to the District court because the first
60(b) was without jurisdiction in the district court. Once the appeal was demed-

4

dismissed, Appellant filed the 60(B) and the district court filed it in March, 2020
which the district court returned the filed motion with a copy of, Bridges v. Sloan
l:15-cv-02556 Doc# 45. Appellant then filed a timely reconsideration of 60(b)
motion, the district again filed it and again sent back the motion with a copy of
Rridee.fi v. Sloan. l:15-cv-02556 Doc# 45. “See” also Doc#70 and all
attachments. Not giving petitioner a right to address, or redress.
9. In attempt to have his timely 60(b) motion heard fairly, Appellant filed in the
Sixth Circuit Court of appeals, Case No. 20-3493 (6th Cir. 4-22-2020) with aiding
exhibits showing he is getting futile responses, and the District Court is not filing
any of his legal Constitutional claims, motions or briefs. Not stating specific
reason or cause.
In this attempt, appellant demonstrated the filings by its date(s) so he could
appeal the new timely 60(b) motion in this Circuit Court. The Sixth Circuit Court of
appeals on Case No. Bridges v. Gray. 20-3493, 2020 U.S. App. LEXIS 25369;
August 10, 2020, may have mistakenly overlooked the filings and went off the
docket dates, and dismissed the appeal for lack of jurisdiction. Appellant then filed
a timely en banc/ reconsideration in which was denied on October 5, 2020,
Case No.20-3493, Bridges v. Gray. 2020 U.S. App. LEXIS 25369
10. Petitioner now comes to this court to erase a manifest injustice, and seek a
fair hearing and adjudication on claims that was determined in the lower court that
it will not de novo, proper United States violations to the U.S Constitution. No
lower courts will review, or give relator a right to redress fairly; the showing of

innocence , because if done so relator with fair hearing will obtain his freedom as
protected by the fourteenth Amendment to the United States Constitution.

APPLICABLE LAW
1. This petition is drafted for hearing(s) of importance and ordinarily is
respectfully moved for appropriate consideration by the full court, because the
petition is necessary to secure or maintain uniformity of February 22, 2021,
decision, and ....the proceeding involves a question of exceptional importance as to
redress the courts as protected by the First Amendment of the United States
Constitution and under the Fourteenth Amendment to the U.S. Constitution, as
protected by Due process and of Equal protection of the law.
2. As it maybe so, it also applicable in the instance, that a grant is appropriate m
this extremely unusual case, and it is submitted to cure a gross injustice.
“See” Church of Scientology v. Foley, supra, note 18, 205 U.S. App. D.C. at 370
n.46, 640 F.2d at 1341 n.46.
3. Petitioner, did timely file the appeal and, although the timely filing of a notice
of appeal is a jurisdictional prerequisite for perfecting an appeal, “See”
United States v. Robinson. 361 U.S. 220, a liberal view of papers filed by indigent
and incarcerated defendants, as equivalents of notices of appeal, has been used to
preserve the jurisdiction of the Courts of Appeals. See, e.g. Lemke v. United
States. 346 U.S. 325.

6

4. When petitioner filed his 60(b) application while the appeal was pending the
district court did not rule on the merits of the case, nor reviewed the filings, the
clerk sent all filings back to petitioner; and petitioner could not develop any
argument because the district court determined that it could not entertain Doc#63
Motion citing and quoting- Post v. Bradshaw, 422 F.3d 419,421 (6th. Cir.2005),
and; First Nat'l Bank of Salem. Ohio v. Hirsch, 535 F.2d 343 (6th Cir. 1976).
5. However, the District court did not follow the standards in Post v. Bradshaw
422 F.3d 419,. (A review of the case and record will show).

Discussion and Applicable Holdings Made By This Court:

1.

This court has held and ruled consistently that the interest in finality of
litigation must yield where the interests of justice would make unfair the strict
application of the court rules. This policy finds expression in the manner in
which the court has exercised its power over the court’s own judgments, both in
civil and criminal cases. “See” Clark v. Manufacturers Trust Co., 337 U.S.
953, Goldbaum v. United States. 347 U.S. 1007; Banks v. United States,
347 U.S. 1007; McFee v. United States. 347 U.S. 1007; Remmer v. United
States. 348 U.S. 904; Florida ex rel. Hawkins v. Board of Control, 350
U.S. 413; Boudoin v. Lvkes Bros. S. S. Co., 350 U.S. 811; Cahill v. New
York. N. H. & H. R. Co., 351 U.S. 183, Achilli v. United States, 352 U.S.
1023.

2.

A Petitioner denial of petition for certiorari is part of appellate procedure
authorized by Rules of Supreme Court, subject to requirements of predecessor
to right to such consideration was not to be deemed an empty formality as
though such petitions would as matter of course be denied; denial of petition
for certiorari should not be treated as definitive determination in Supreme
Court, subject to all consequences of such an interpretation. Flynn v. United
States. 75 S. Ct. 285, 99 L. Ed. 1298 (1955).

REASON FOR GRANTING THE WRIT
If this court does not grant this writ; it will allow a manifest injustice to conquer
the values of the United States Constitution. This case proves there was no
Protection of any Constitutional right: as this case proves:

1. Wrongful as it so, all rulings of the lower courts have implied infringement
of Amendment 5, 6, 8, and 14; of the United States Constitution, and may
result from disobedience to unlawful authority, “Quoting ; Bushier v.
Marruio. 86 N.M. 399, 524 P.2d 1015, 1019;
2

False Imprisonment, where Bridges is unlawfully under detention, whereby
he is denied his personal liberty, the lower courts refused to adjudicate and
administer a fair proceeding. “Quoting”; Punier v. Seubert, 69 WIS. 2d 626,
230 N.W. 2d 626, 631.

8

3, Improper to the United States Constitution, not suitable, unfit, not suited
to the character, time, or place. “Quoting”; Godbev v. Godbey* 70-Ohio-App.
555, 44 N.E. 2d 810, 813. And not in accordance with facts, truth, or right
procedure and not in accord with propriety, modesty, good taste, or good
manners, “Quoting”; Landry v. Daley. D.C. Ill 280 F. Supp, 968, 970.
4, Failure of Justice, the defeat of a particular right, or failure of reparation
for the wrongs Bridges faced in the lower court[s], from lack and inadequacy of
a legal remedy enforcement of Bridges to redress the court of law, also known
as miscarriage of justice.
5, Miscarriage of Justice. All the lower court[s] decision and outcome of legal
proceeding are prejudicial, and is inconsistence with substantial and
substantive rights, used unlawful constitutional standards to deny Bridges,
which are reversible error. It makes a reasonable probability of more favorable
outcome for Bridges, People v. Lopez, 251 CAL. App. 2d, 918, 60 Cal. Rptr,
72, 76. Warranting reversal should be declared, when this court, after
examination of entire cause, including the evidence, is of opinion that it is
reasonably probable that a result more favorable to Bridges appealing would
have been reached in absence of error, “Quoting”; People v. Bernhardt, 222
CA 2d 567, 35 Cal.
Rptr. 401, 409.
6. Manifest. “Quoting”; Houston v. Leyden Motor Coach Co, 102 Ill. App. 2d
348, 243 N.E. 2d 293, 296 “See” also, Grafv. Ford Motor Co., 102 Ill. App. 2d

9

390, 243 N.E. 2d 337, 341. Where this court will find abusive and prejudicial
denials.
7. Error. “Quoting”; State ex rel. Smith v. Smith, 197 OR. 96, 252 P. 2d 550
555. Where, all rulings in Bridges case at the lower level are in conflict with
each other and when shown still denied. U.S. 19, 24.
8. Actual Innocence, real existing presenting in fact; the absence of guilt; free
from guilt, Quoting”; U.S. v. Friday. D.C. Mich., 404 F. Supp. 1343, 1346.
9. Actual Total Loss of Freedom. Constitution, Constitution Law,
Constitutional Protections, Constitutional right[s], Constitutional Questions,
by not reviewing or fairly De Novo, Bridges claims, or reviewing the record
and misapplying denial[s] for COA, in the Lower courts.

Petitioner Move for Relief:

1. In this means appellant comes before all justices of this Honorable court and
move for consideration and oral hearing, as well as an order from release
from prison, and on the matter that this court does obtain jurisdiction, and if
by chance, because there was no ruling on the 60(b) motion, Petitioner
request to remand the proper filed 60(b) back to the district court to be
reviewed on the merits, or fairly determined; since there is a good chance the
case will be overturned in favor of petitioner freedom, from conviction and
sentence, from what was taken place in his habeas proceedings.

10

Conclusion
This request to rehear and reconsider is presented in good faith and not
for delay

And so, Petitioner Prays for the above stated and requested

Respectfully submitted,
^//IasC‘1 /\j xj

____

Andrey L. fridges #A(mO-493
Belmont Correctional Institution
P.0. Box 540
68518 Bannock Road
St. Clairsville, Ohio 43950

